■to

IN THE SUPREME COURT OF THE UNITED STATES
SuprSTTFcSurtTus'
FILED

FEB 1 6 2021
TYRELL E. ARTIS
Petitioner,

°£2£eofihE clERK

vs.
STATE OF OHIO
Respondent,

-PETITION FOR WRIT OF CERTIORARI-

ON PETITION FOR A WRIT OF CERTIORARI TO
THE THIRD DISTRICT COURT OF APPEALS OF OHIO

No.

TYRELL E. ARTIS, Pro-Se
Inmate: A746-808
North Central Correctional Complex,
P.0 BOX: 1812
Marion, Ohio 43301-1812.
PETITIONER, PRO-SE

STATE OF OHIO
Ohio Attorney General's Office,
Dave Yost, Attorney General
150 East Gay Street, 16th Floor,
Columbus, Ohio 43215.
RESPONDENT.

-COVER PAGE-

-QUESTION'S BEING PRESENTED-

QUESTION ONE: CAN A PLEA DEAL CONSISTING OF TWO (2) MISDEMEANOR DOMESTIC
VIOLENCE CHARGES BE WITHDREW POST SENTENCE, WHEN; (1 ) NO DIRECT APPEAL WAS
TAKEN; (2) SAID PLEA DEAL(s) WERE UNCONSOLED RESULTING IN ACTUAL INCARCERATION,
IN VIOLATION OF THE SIXTH AMENDMENT THROUGH THE FOURTEENTH AMENDMENT AND
SUPREME COURT PRECEDENT; (3) IT IS UNDISPUTED NO VALID WAIVER OF COUNSEL WAS
GIVEN, IN VIOLATION OF THE SIXTH AMENDMENT THROUGH THE FOURTEENTH AMENDMENT;
AND/OR (4) SAID PLEA DEAL(s) IS/ARE NOW BEING USED TO ENHANCE, A SEPERATE
AND LATER CHARGED, MISDEMEANOR DOMESTIC VIOLENCE INTO A FELONY OFFENSE.
&

QUESTION TWO: WHETHER RES JUDICATA BARS PETITIONER'S SIXTH AND FOURTEENTH
CONSTITUTIONAL AMENDMENT CLAIMS WITHIN A POST SENTENCE MOTION TO WITHDRAW PLEA
WHEN IT IS SHOWN SAID PLEA WAS UNCONSOLED, RESULTED IN DEPRIVATION OF LIBERTY,
NO WAIVER OF COUNSEL GIVEN, AND NOW BEING USED TO ENHANCE A SEPERATE OFFENSE,
FROM A MISDEMEANOR TO A FELONY.

-PARTIES HEREIN-

PETITIONER:
Tyrell E. Artis, Pro-Se
Inmate: A746-808
North Central Correctional Complex,
P.0 BOX: 1812
Marion, Ohio 43301-1812.
* * *

RESPONDENT:
STATE OF OHIO,
Ohio Attorney General's Office,
Dave Yost, Attorney General
150 East Gay Street, 16th Floor,
Columbus, Ohio 43215.
* * *

-RELATED CASES1: State v. Artis, Logan County Ohio Common Pleas Court, Case No. CR-18-05-0140.
2: State v. Artis, 3rd Dist. Logan. No. 8-18-40, 137 NiE.3d 587,
2019-0hio-2070.

-I-

-TABLE OF CONTENTS-

1: OPINIONS BELOW,

PG:1,

2: II.JURISDICTION,

PG:1,2,

3: III. CONSTITUTIONAL AND STATUTORY PROVISIONS,

PG:2,

4: IV. STATEMENT OF FACT AND CASE,

PG:3-5

5: V. LAW AND ARGUMENT IN SUPPORT,

PG:6-22

A. INTRODUCTION,

PG:6-8

B. ABSENT A KNOWING AND INTELLIGENT WAIVER, NO PERSON
MAY BE IMPRISONED FOR ANY OFFENSE,

PG:8-13

C. RES JUDICATA DOES NOT OUTWEIGH A DEFENDANTS U.S.
CONSTITUTIONAL RIGHTS AND SAFEGUARDS, THUS DOES NOT
BARR A CONSTITUTIONAL VIOLATION CLAIM,

PG:13-22

6: VI. CONCLUSION,

PG:22

7: CERTIFICATE OF SERVICE (PROOF OF SERVICE),

PG: A

-INDEX TO APPENDIX1: APPENDIX A - Decision, Judgment, and Opinion, of the Third District
Court of Appeals, Case No. 8-19-52 & 8-19-53, dated:
August 10th, 2020.
2: APPENDIX B - Decision and Judgment of the Bellefontaine Municipal Court
(Trial Court), Case No. 11CRB1721 & 11CEB1850, Dated:
November 05th, 2019.
3: Appendix C - Decision and Judgment of the Ohio Supreme Court (Discretionary
Appeal), Case No. 2020-1110, Dated: November 10th, 2020

-II-

-TABLE OF AUTHORITIES AND STATUTES-

A. FEDERAL CASES

1: Alabama v. Shelton, 535 U.S. 654,
2: Argersinger v. Hamlin, 407 U.S. 25, 92 S.Ct. 2006,
3: Coleman v. Alabama (1970), 399 U.S. 1, 9, 26 L.Ed.2d 387,
90 S.Ct. 1999,
4: Foster v. Chatman, 136 S.Ct. 1737,
5: Gideon v. Wainwright, 83 S.Ct. 792,
6: Johnson v. Zerbst, 304 U.S. 48,
7: Lawrence v. Florida, 549 U.S. 327, 335,
8: Nichols v. United States, 511 U.S. 738,
9: Powell v. Alabama, 53 S.Ct. 55,
10: Scott v. Illinois, 440 U.S. 367,
11: Wearry v. Cain, 577 U.S., 136 S.Ct. 1002, 194 L.Ed.2d 78
(2016),

PG:10,11,13
PG:8,11,13,20,21
PG:18
PG:15,16
PG:21,
PG:14,21,
PG:16,
PG:14,21,
PG:19,20,
PG:11,
PG:16,

B. OHIO CASES CITED
1: State v. Gibson, 45 Ohio St.2d 366, 377,
2: State v. Perry, 10 Ohio St.2d 175, 226 N.E.2d 104 (1967),
(Ohio Res Judicata Doctrine)
3: State v. Saxon, 109 Ohio St.3d 76, 2006-0hio-145,
4: State v. Smith, 49 Ohio St.2d 261 (1977),
5: State v. Streeter, 2009-0hio-189,
6: State v. Straley, 2019-Ohio-5206,

PG:12,
PG:17,18,
PG:17,18
PG:17,
PG:17,
PG: 17,

-CONSTITUTIONAL AND STATUTORY AUTHORITIESA. FEDERAL AUTHORITIES

1: Poor Prisoner's Defence Act, 1903, 3 Edw. 7, Ch. 38, §1.
2:
3:
4:
5:

Supreme Court Rule §10,
Supreme Court Rule §13,
Sixth Amendment to the U.S. Constitution,
Fourteenth Amendment to the U.S. Constitution,

PG:20,
PG:1,
PG:1,2,
PG:2,
PG:2,
PG: 1,

6: 28 U.S.C. §1257(a),
B. OHIO AUTHORITIES CITED
1: Ohio Criminal Rule §32.1,

PG:16,17,

2: Ohio Criminal Rule §44(B),

PG:12,
-III-

IN THE SUPREME COURT OF THE UNITED STATES

TYRELL E. ARTIS,
Petitioner,
-VSSTATE OF OHIO,
Respondent,

: Case No:
: PETITION FOR WRIT OF CERTIORARI TO THE
: THIRD DISTRICT COURT OF APPEALS OF OHIO
: PETITION
PETITION FOR A WRIT OF CERTIORARI

Now comes the Petitioner, Tyrell E. Artis, Pro-Se, Who hereby respectfully
prays that this Honorable Court will issue a Writ of Certiorari to review the
judgment below.~ The~ foregoing" is" further supported Within this Petition.
I. OPINIONS BELOW
A. OPINIONS OF THE OHIO STATE COURTS
1: The Opinion of the Highest State Court to review the Merit (Discretionary)
appears at Appendix C to the Petition and is Reported at; 2020-0hio-5169, 160
Ohio St.3d 1448, 156 N.E.3d 918 (Ohio, Nov. 10, 2020).
2: The Opinion of the Third District Court of Appeals of Ohio appears
at Appendix A to the Petition and is Reported at; 2020-0hio-4018, 2020 Ohio
App.LEXIS 2913.
3: The Opinion and Judgment of the Bellefontaine Municipal Court (Trial
Court), is unpublished,, and appears at Appendix B to the Petition.

II. JURISDICTION
The Jurisdiction of this Honorable Court is invoked under 28 U.S.C. §1257(a);
Supreme Court Rule 10(c); and Supreme Court Rule 13.

-1/22-

-Decision and Judgment to be Reviewed by this Court: Third District Court
of Appeals of Ohio, Judgment and Opinion entered on: August 10th, 2020;
-The Ohio Supreme Court denied Discretionary Review on: November 10th,
2020.
-The Bellefontaine Municipal Court, Entered Judgment and Opinion on:
November 5th, 2019.
-No Petition for rehearing was thereafter in any cause listed herein filed.
Pursuant to Rule 13(1) of the Rules of the Supreme Court of the United
States; "A petition for a Writ of Certiorari seeking review of a judgment of a
lower State Court that is subject to discretionary review by the State Court of
last resort is timely when it is filed with the Clerk within 90 days after
entry of the order denying discretionary review.". Therefore, this Petition
is hereby timely commenced and filed.
III. CONSTITUTIONAL AND STATUTORY PROVISIONS
-SIXTH AMENDMENT U.S. CONSTITUTION;
"In all criminal prosecutions, the accused shall enjoy the
right to a speedy and public trial, by an impartial jury of the State and
district wherein the crime shall have been committed, which district shall
have been previously ascertained by Law, and to be informed of the nature
and cause of the accusation; to be confronted with the witnesses against
him; to have compulsory process for obtaining witnesses in his favor, and
to have the assistance of counsel for his defense."
-FOURTEENTH AMENDMENT U.S. CONSTITUTION;
"Section One: All persons born or naturalized in the United
States and subject to the jurisdiction thereof, are citizens of the United
States and of the State wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive a person of life, libery, or
property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the Laws."
-RES JUDICATA DOCTRINE.

-2-

IV. STATEMENT OF FACT AND CASE
November 2nd, 2011, Petitioner herein, Tyrell E. Artis (Hereinafter
referred to as "Artis"), was arrested within Beliefontaine, Ohio (Logan County)
for a charge of Domestic violence, a violation of Ohio Revised Code §2919.25(A),
a Misdemeanor of the first degree.
November 3rd, 2011 Arraignment was held in which Artis entered a not
guilty plea, was granted an OR bond (Release on his Own Recognizance), and
Trial was scheduled for December 5th, 2011. As to Trial Court Case No. 11CRB1721.
November 21st, 2011, Artis was charged with another Domestic Violence
offense, a violation of Ohio Revised Code §2919.25(A), a misdemeanor of the
first degree. Trial Court Case No. 11CRB1850.
November-29th, 2011, the Bellefontaine.Municipal-Court Prosecutor's
Office filed a Motion to Revoke Artis's bond for alleged violation of the
conditions of his OR bond.
December 5th, 2011, Artis withdrew his plea of not guilty, in Case
No. 11CRB1721 and 11CRB1850, and entered a plea of guilty to the offense(s)
charged, without counsel. The Municipal Court accepted the plea of guilty,
with no determination and/or a waiver of counsel, and found him guilty. The
same day (12/05/2011), the Municipal Court, without counsel, imposed a sentence
of; As to Case No. 11CRB1721, three (3) days in the Logan County Jail and a
$150.00 fine; As to Case No. 11CRB1850, fourteen (14) days in the Logan County
Jail and a $150.00 fine. The Court ordered the terms to be served consecutively
for an aggregate term of seventeen (17) days in the Logan County Jail. Artis
served the entire term, and did not file a Direct Appeal as of Right.
May 18th, 2018, the Logan County Grand Jury indicted Artis on one count
of Domestic Violence, a violation of Ohio Revised Code §2919.25(A),(D) (4), a
felony of the third degree. Said offense was elevated to a felony of the

-3-

third degree based on Artis's prior convictions in Bellefontaine Municipal
Court Case No(s). 11CRB1721 & 11CRB1850 (Prior to enhancement, said offense
was a Misdemeanor of the First Degree).
August 21st, 2018 Artis was found guilty by a jury and was then sentenced
to a term of thirty-six (36) months within prison as to the Felony Domestic
Violence charge. Thereafter, Artis's counsel timely appealed the conviction
and sentence to the Third District Court of Appeals of Ohio (See, State v. Artis,
2019-0hio-2070), in which Artis's Court appointed counsel provided the following
Assignment's of Error to be reviewed;
1 : THE TRIAL COURT ERRED IN DECLARING MEGAN KEACK TO BE AN UNAVAILABLE
WITNESS AND IN FAILING TO ENFORCE HER SUBPOENA, THEREBY DEPRIVING APPELLANT
OF HIS RIGHTS UNDER THE CONFRONTATION CLAUSE OF THE SIXTH AMENDMENT TO THE
UNITED STATES CONSTITUTION, ARTICLE I, SEC.10 OF THE OHIO CONSTITUTION,
CONSTITUTIONAL DUE PROCESS, AND HIS RIGHT TO A FAIR TRIAL;
2: APPELLANT WAS DENIED HIS CONSTITUTIONALLY PROTECTED RIGHTS TO
EFFECTIVE ASSISTANCE OF COUNSEL AND A FAIR TRIAL;
3: THE TRIAL COURT; ERRED IN FAILING TO MERGE THE DOMESTIC VIOLENCE AND
ABDUCTION COUNTS CONTAINED IN THE INDICTMENT:
4: THE TRIAL COURT ERRED IN FAILING TO PROVIDE A COMPLETE JURY INSTRUCTION;
5: THE CUMULATIVE EFFECT OF THE FOREGOING ERRORS DENIED APPELLANT OF
A FAIR TRIAL.
May 28th, 2019, the Court of Appeals affirmed Artis's conviction and
sentence, id. Artis timely filed an application to reopen his direct appeal
based on ineffective assistance of appellate counsel (Ohio App.R.26(B)), mainly
arguing that Appellate Counsel failed to raise the issue that his charge of
Domestic Violence was illegally enhanced based on his prior unconsoled plea
deal(s) in Case No(s). 11CRB1721 and 11CRB1850, when no waiver of - counsel was
given or determined.
October 4th, 2019 The Court of Appeals denied Artis's Application to
reopen finding Appellate Counsel was not ineffective for not raising said issues.

-4-

October 29th, 2019, Artis filed a Motion in the Bellefontaine Municipal
Court in, Case No(s) 11CRB1721 & 11CRB1850, to withdraw his plea(s) of guilty,
arguing that his plea(s) were unconsoled - resulted in actual incarceration
- and no waiver and or hearing to determine waiver of counsel was given/held,
and now illegally being used to enhance a new charge of domestic violence.
November 4th, 2019 the State filed a Memorandum in Opposition to Artis's
Motion ti Withdraw his plea's of guilty, in which the following day the Trial
Court denied Artie's Motions.
December 2nd, 2019, Artis timely appealed the denial of his Motion's
to Withdraw his Plea(s), which Case No(s) 11CRB1721 & 11CRB1850 were consolidated
for purposes of appeal, to the Third District Court of Appeals of Ohio (See,
State v. Artis, 2020-0hio-4018).
Artis, Pro-Se, presented the following Assignment of Error to be reviewed;
1: THE APPELLANT'S UNITED STATES FOURTEENTH AMENDMENT RIGHT WAS VIOLATED
WHEN THE COURT DENIED HIS MOTION TO WITHDRAW HIS PLEA, AS HE ESTABLISHED
THAT THE PRIOR PLEA WAS AN UNCOUNSOLED PLEA.
August 10th, 2020, the Third District Court of Appeals affirmed Artis's
Conviction and Plea Deal, and determined that Artis was barred due to Resjudicata,
hence he never filed a Direct Appeal, id. fl.13 Artis II.
September 15th, 2020, Artis timely appealed the Court of Appeals Judgment
and Opinion to the Ohio Supreme Court, as a Discretionary Appeal, raising
one Proposition of Law, in which is as follows;
PROPOSITION OF LAW ONE: APPELLANT'S PLEA OF GUILTY IS VOID AND OR VOIDABLE
UNDER THE U.S. AND OHIO CONSTITUTION, AS IT WAS CLEARLY AN UNCOUNSOLED PLEA,
IN WHICH RESULTED IN ACTUAL INCARCERATION AND USED TO ENHANCE ANOTHER CRIMINAL
CHARGE.
November 10th, 2020, the Ohio Supreme Court declined to accept Jurisdiction,
with a dissenting j udgment (Not unanimous).

-5-

V. LAW AND ARGUMENT IN SUPPORT
A. INTRODUCTION
Petitioner, Tyrell E. Artis, brings forth this cause of action in hopes
this Honorable Court will grant review of the lower courts decision's in order
to correct an injustice. This cause of action steins from a Municipal Court
conviction and plea-deal within Bellefontaine, Ohio (Logan County), in which
said Municipal Conviction is years later being used to enhance a new
Misdemeanor offense to a felony offense, and has been used, as the Logan County
Common Pleas Court convicted and sentenced Petitioner to three (3) years
in prison for the new enhanced offense.
The argument presented herein is in regard to both questions presented.
Petitioner in 2011 accepted pro-se a plea deal to resolve both his Municipal Cases,
both for one (1) count of Misdemeanor one Domestic Violence, in which the Trial
Court accepted Petitioner's pleas of guilty, sentenced him to a term of 17-days
within the Logan County Jail (Term served), and a total of $300.00 in fines.
However, the issue is that the Trial Court offered and accepted the plea without
ever giving Petitioner counsel, or even offering him counsel, the Court did
not hold a hearing to determine waiver of counsel, essentially the word "Counsel"
was never brought up. The Prosecution offered Petitioner the opportunity to
merely plea guilty to all counts as charged, thus to avoid trial and him having
to pay for an attorney, the Trial Court accepted the open plea of guilty, never
questionediit or went over any rights pertaining to appointment of counsel with
the Petitioner, and then sentenced him, immediately, to jail. Petitioner never
appealed the conviction or sentence because again he had no attorney, he could
never be aware that the Trial Court was without the authority to impose a jail
term upon him, why would someone ever think a judge could not sentence them
to jail, it is not possible for him to have known these things as he is not
an attorney, keepiin mind, the Trial Court absolutely never held a hearing

-6-

or any conversation or waiver into if Petitioner wanted counsel at all, he
was absolutely clueless as to the law and believed the Trial Court was doing
him a favor.
Almost eight (8) years later, Petitioner herein is charged with a count
of Domestic Violence within Logan County, Ohio, in which said1 charge is a
Misdemeanor of the First Degree. However, the Logan County Prosecutor's Office
enhanced the charge to a Felony of the Third Degree based on Petitioner's
prior convictions of Domestic Violence in his Bellefontaine Municipal Court
Case(s), based upon his plea of guilty, as such the Logan County Grand Jury
indicted Petitioner of a Felony Three Domestic Violence offense, in which
now carrys up to three (3) years within prison. Petitioner's Trial Counsel
(Appointed) within his new case never brings up contesting the previous
plea deals and goes to trial, gets found guilty, and sentenced to-(3) three
years in prison for the Domestic Violence offense. Petitioner's Trial Counsel
appeals his conviction, never raises that his prior pleat’s) were unconsoled
and couldn't be used against him, so the Court of Appeals affirms his conviction.
Petitioner eventually meets a Law Clerk within the prison who tells him that
a court cannot impose a jail term or fine if the conviction rests based on
an unconsoled guilty, and any plea deal resulting in jail time when unconsoled
when no waiver of counsel was administered is void and cant be used to enhance
a new offense from a misdemeanor to a felony now. Petitioner urges this Honorable
Court to keepi in mind, how can the State expect him to have appealed the
Municipal Conviction in 2011 if he had no ..attorney, the court never asked
or gave him one, and he had no idea the actions taken by the Court was not
legal, when all these years he believed it was 100% within the Trial Courts
authority to impose a jail term and fine, not give him counsel, and enhance
a new charge based on it. It is now coming to his attention the Court could
not do so, and now raises the alarm to it. His new offense should have never
been a felony, he should not be in prison on this illegaly enhanced offense,

-7-

thus to correct this injustice he must now attack the plea deal from the
Municipal Court. Had at that time Petitioner known the Trial Court was not
in the authority to impose a jiail term upon Petitioner, he would have raised
that issue at sentencing and not paid the fine, its clear Petitioner had
no idea of this injustice.
B. ABSENT A KNOWING AND INTELLIGENT WAIVER, NO PERSON MAY BE
IMPRISONED FOR ANY OFFENSE
This Honorable Court has determined and held that;
"We must conclude therefore, that the problems associated with Misdemeanor
and petty offenses often require the presence of counsel to insure the accused
a fair trail. MR.JUSTICE POWELL suggest that these problem are raised even in
situations where there is no prospect of imprisonment. Post, sat 48. We need not
consider the requirements of the sixth Amendment as regards the right to counsel
where loss of liberty is not involved, however, for here Petitioner was in fact
sentenced to jail. And, as we said in Baldwin v. New York, 399 U.S. at 73,
'the prospect of imprisonment for however short will seldom be.viewed by the
accused a trivial or petty matter and may well result in quite serious
repercussions affecting his career and his reputation.'
We hold, therefore, that absent a knowing and intelligent waiver, no person
may be imprisoned for any offense, whether classified as petty, misdemeanor,
or felony, unless he was represented by counsel at his trial." Argersinger v.
Hamlin, 407 U.S. 25, 92 S.Ct. 2006.
While herein this matter, it is undisputed that; (1) He was sentenced to
a term of seventeen (17) days in jail; (2) He was sentenced to a total of
$300.00 in fines; (3) He was pro-se during the entire municipal proceedings;
(4) The Trial Court never offered Petitioner counsel, and or, never determined
waiver of counsel, and/or, advised him of his right to counsel (id.Appendix B),
and; (5) Petitioner's conviction was for two (2) counts of Misdemeanor (First
Degree) Domestic Violence.
Within the Municipal Court, Petitioner was approached by the prosecution
to plea guilty, never offered counsel or a waiver of counsel, or he was to
go to trial, Petitioner accepted the plea of guilty, the Court then never
asked Petitioner if he understood his rights, or if he wanted counsel, or if
he was waiving his right to counsel, or that he could not be sentenced to jail
if counsel was not present, so he pled guilty believing in doing so
-8-

that he was being given a "deal" essentially, not that the Court and Prosecution
secretly were doing the complete opposite. Petitioner not once from the beginning
of the proceedings to the end was ever given counsel, asked if he wanted counsel,
if he understood he had a right to counsel, it was made to be believed that
Petitioner either had to purchase his own counsel or proceed Pro Se, hence
the charges were not felony's.
Eight (8) years later (2019), Petitioner moved the Bellefontaine Municipal
Court to withdraw his pleas of guilty in both case numbers, asserting; "Due
to the violation of the Defendants rights under the Sixth and Fourteenth
Amendment of the United States Constitution." (id.Motion to Withdraw Plea
10/29/2019). Petitioner argued that his pleas of guilty were Unconsoled,
resulted in deprivation of liberty and fines, in which the Trial Court never
offered him Counsel or waived his right to counsel. Further, that the Logan
County Common Pleas Court has enhanced a Misdemeanor Domestic Violence offense
to a felony based on the Unconsoled Misdemeanor plea(s).
The Bellefontaine Municipal Court on November 5th, 2019, denied Petitioner's
Motion to Withdraw plea, stating: "The Defendant neither requested court
appointed counsel, nor did private counsel enter an appearance on his behalf.
He pled guilty to the charge in each case, was convicted and sentenced.".
Therefore, it is very clear the Trial Court does not dispute that they never
offered him counsel, never advised him of his rights to counsel, never held
a hearing to waive his rights to counsel, and sentenced him to jail. The
Trial Court goes on within its judgment entry to justify its actions by stating:
"The sentences were imposed in the same hearing and were slight considering
the offenses. It should be noted that the Defendant received no further punishment
for violating the terms of his OR bond." id. However, while the Trial Court
clearly feels a Defendant's Constitutional rights do not outweigh the courts

-9-

justification because the Judge felt he got: off easy. This "justification"
is in no way a legal sound reason to not appoint someone counsel, or to hold
a hearing to inform a Defendant of their Constitutional right to counsel and
to waive such. The Court merely sentenced Petitioner to Jail, fined him, and
felt the Court was doing the right thing because he could have gotten more
time. The Court fails to address the Constitutional violation, and fails to
address i :the argument provided within the Motion to Withdraw that the Court
had no authority to; (1) Accept the plea at all without appointing counsel
or holding a hearing to determine waiver of counsel; and (2) Impose a jail
term or fine, again, unless the Court appoints Petitioner Counsel. Every
action took by the Bellefontaine Municipal Court in 2011 was wholly against
this Country's Constitution and all rights in which people have fought to
have in this Country. When did we go back to a time where courts could
wholly overlook Constitutional rights, sentence people to jail without an
attorney, because the Judge "Felt" said individual deserved it or was getting
off easy. Petitioner wasn't getting off easy, he was placed into jail, he
pled guilty without counsel to every charge against him, when the Court had
no authority to do so, and now said Unconstitutional act is being used to
put him in prison for three (3) years, eights years later.
This Honorable Court for years now has continously held that whether,
Misdemeanor, Petty, Felony, etc, Courts MUST appoint Counsel during the plea
process and or in the alternative hold a seperate hearing advising the Defendant
of his Constitutional right to counsel and to waive his right to counsel, however
this Court continously has held that unless the Court appoints Gounsel, the
Trial Court cannot impose a Jail Term or fine nor impose a term of probation
with a suspended jail term, to do such is a clear violation of the Defendant's
Sixth Amendment right to Counsel and Fourteenth Amendment right to Due
Process within the State Courts. Alabama v. Shelton, 535 U.S. 654.

-10-

Petitioner points to Alabama v. Shelton, 535 U.S. 654, decided May 20th,
2002 by this Honorable Court. Shelton concerned the Sixth Amendment right of
an indigent defendant charged with a misdemeanor punishable by imprisonment,
fine, or both, to the assistance of court-appointed counsel, id.657, Now while
Shelton merely added to this Court determination in Argersinger v. Hamlin and
Scott v. Illinois, by additionally determining that; "A suspended sentence
that may 'end up in the actual deprivation of a person's liberty' may not
be imposed unless the defendant was accorded 'the guiding hand of counsel'
in the prosecution for the crime charged." id.Syllabus. In which this Court
held that; "The controlling rule is that 'absent a knowing and inteligent
waiver, no person may be imprisoned for any offense__Unless he was represented
by Counsel at his trial." id. Syllabus. Within Shelton, the Alabama Court argued
that during his Trial the Judge repeatedly warned Shelton about the problems
self-representation entailed, but at no time offered him assistance of counsel
at State's expense, id.Syllabus. Petitioner emphasizes on Alabama's argument
in response, as herein Beliefontaine Municipal Court argues that because Petitioner
never asked for counsel, they were not required to do so themselves, thus
Petitioner argues the Trial Courts reason for not appointing counsel or waiving
counsel is not an argument in which this Honorable Court has accepted or allowed.1
Prior to Hamlin or Shelton, this Honorable Court in Johnson v. Zerbst,
304 U.S. 48, held that;
"The constitutional right of an accused to be represented by counsel invokes,
of itself, the protection of trial court, in which the accused whose I life or
liberty is at stake - is without counsel. This protecting duty imposes the
serious and weighty responsibility upon the trial judge of determining whether
there is a intelligent and competent waiver by the accused. While an accused
may waive the right to counsel, whethere there is a proper waiver should
be clearly determined by the trial court, and it would be fitting and
appropriate for that determination to appear on the record." id., at 465
While the State of Ohio has adopted procedural rule within their
Criminal Rules in which prohibits imposition of a jail term unless the Court

-11-

appoints counsel, Petitioner herein was clearly not afforded the Due Process
and or the equal protections of the Ohio Law and:or Federal Law.
Ohio Criminal Rule 44(B) hereby states;
"(B) Counsel in petty offenses: Where a defendant charged with a petty
offense is unable to obtain counsel, the court may assign .^counsel to represent
the Defendant. When a defendant charged with a petty offense is unable to
obtain counsel, no sentence of confinement may be imposed upon the defendant,
unless after being fully advised by the court, the defendant knowingly,
intelligently, and voluntarily waives assignment of counsel."
The Ohio Supreme Court has set forth the requirement for a sufficient
pretrial inquiry by the Trial Court into a waiver of counsel, in which the
Beliefontaine Municipal Court ignored, within State v. Gibson, 45 Ohio St.2d
366, 377, 345 N.E.2d 399 (1976), stating?
"To be valid such waiver must be made with an apprehension of the nature
of the charges, the statutory offenses including within them, the range of
allowable punishments thereunder, possible defenses to the charges and
circumstances in mitigation thereof, and all other facts essential to a broad
understanding of the whole matter. A judge can.make certain that an accused's
professed waiver of counsel is understandingly and wisely made only from a
penertrating and comprehensive examination of the circumstances under which
such a plea is tendered." id.,at 377.
This is not an issue of whether the State of Ohio has set forth a Rule
and or precedent in which complies with precedent set by this Honorable Court,
the issue is despite this Courts precedent, the Constitution, and Ohio Laws,
the Bellefontaine Municipal Court and the Court of Appeals of Ohio have failed
to uphold and abide by said requirements and provide Petitioner his Due Process
by applying and invoking the Constitutional safeguards, the precedent set
herein, and Ohio Law itself as well. The Courts in Ohio have deprived Petitioner
of liberty, his rights, ignored his arguments of Constitutional violations,
and ignored the rulings set forth by this Honorable Court. This issue not
only affects Petitioner but sets precedent in the State of Ohio now and a path
for other Courts in Ohio to do the same conduct, to ignore the Constitution
and this Courts rulings. By allowing this to continue it jeopardizes others

-12-

who go before the Courts, it allows the Courts to fully disregard the rights
in which this Countryiis known for, the rights afforded to all citizens of
this country, whether they are charged with a crime or not, it is something
that sets us apart from other countrys. Otherwise, our Constitution means
no more than the paper its printed on, if Courts can just overlook it because
they want to, or for any reason, violating a Constitutional right is something
that should be taken seriously, whether if noticed eight years later or not.
Petitioner trusted the Municipal Court and the Prosecution, they "fooledV'him
more or less, and now the State of Ohio is using it against him to put him
in prison, if we cant trust our courts, who can we trust?
Therefore, Petitioner believes strongly his Sixth Amendment right to
Counsel, through the Fourteenth Amendment to the States, was clearly violated.
Furthermore, since his pleas were Unconsoled and resulted in deprivation of
liberty, said plea deals should be void and or voidable, and or be opened to
collateral attack (Withdraw), based on such a serious violation and disregard
of holdings by this Honorable Court in Argersinger v. Hamlin and Alabama v. Shelton.

C. RES JUDICATA DOES NOT OUTWEIGH A DEFENDANTS U.S. CONSTITUTIONAL
RIGHTS AND SAFEGUARDS, THUS DOES NOT BARR A CONSTITUTIONAL VIOLATION
CLAIM.
Petitioner thus far strongly believes it should have been shown herein
that the actions took by the Beliefontaine Municipal Court in 2011, by not
offering Petitioner Counsel nor determing waive of counsel, and incarcerating
Petitioner based on his Unconsoled pleas was a clear violation of Petitioner's
Sixth and/or Fourteenth Amendment rights under the United States Constitution
and contradicting to the precedent set by this Honorable Court.
As its been shown, Petitioner in 2011 did not appeal the conviction and
sentence, he did not contest his Unconsoled pleas, however Petitioner urges
this Court to consider how could he, how could he ever have known what the

-13-

Court did was illegal or that he had a right to counsel, as the Trial Court
openly admits, they never offered him counsel, so how could he know? He went
about his life after the jail term as if the Court did him a favor by not
giving him six months. It was not till he received a new charge years later
for a Domestic Violence offense which was enhanced from a Misdemeanor to a
Felony three based solely upon his Unconsoled plea in 2011, despite it resulted
in actual incarceration. Again though, Petitioner urges this Court to consider
that he never brought that issue up, his prior pleas being Unconsoled and
resulting in Jail time, because again he had no idea that action was illegal,
he believed the enhancement was legal, that the State Court was within their
authority to do so otherwise they wouldnt do it. Petitioner's Court appointed
Counsel never asked about the pleas, never brought up that they could be
contested, and never brought it up to the Court. Court appointed counsel
appealed his conviction to the Court of Appeals, again counsel not once
mentions anything about prior pleas at all, and the Court of Appeals affirms
the conviction. Despite Petitioner now/knowing the pleas could be contested,
it is to late, Court Appointed Counsel never mentioned it once within his
appeal, despite it was very clear his pleas were Unconsoled and resulted in
jail time, in which this Court has determined cannot be used to enhance a
Misdemeanor to a felony. See, Nichols v. United States, 511 U.S. 738. By the
time Petitioner was aware of this, he had no remedy's available to him to
attack his current conviction. Thus, he was left with attacking his prior
Unconsoled pleas themselves since they.:are in violation of his rights, in
hopes to get them vacated and or voided in order to collaterally attack
his current conviction. This action while it relates to his current felony
conviction and the enhancement, it is solely in regards to his Beliefontaine
Municipal Convictions.

-14-

Once tiie Bellefontaine Municipal Court denied Petitioner's Motion to
Withdraw his pleas, based on a violation of his Sixth and Fourteenth Amendment
rights, he timely appealed that Judgment and Decision to the Third District
Court of Appeals, in which as well Affirmed the Decision (See, State v. Artis,
2020-0hio-4018, Appendix A hereto).
Petitioner within his Merit Brief argued that his Fourteenth Amendment
right was violated when the Court denied his Motion toiWithdraw plea as his
pleas we Unconsoled, resulted in deprivation of Liberty, in which no waiver
of counsel was given. More specifically, Petitioner argued his guilty pleas
were not made knowingly, intelligently, and voluntarily because he entered
the pleas without the assistance of counsel, with no waiver of counsel, resulting
in actual jail time, in violation of the Sixth Amendment to the U.S. Constitution.
Further, Petitioner informed the Court of Appeals said plea deals were now
being used to enhance a subsequent offense to a felony.
While Petitioner raised a Federal Constitutional violation, the Court
of Appeals did not address it. However, the Court did not address the Federal
Constitutional violation due to a Rule or Law within the State of Ohio in
which would be an adequate, independant, and controlling Rule/Law of the
issue in question, as the Court merely concluded that Petitioner cannot raise
his Constitutional claim based upon the Doctrine of res judicata. See, Foster
v. Chatman, 136 S.Ct.1737, 1746 ("When application of a State Law bar 'depends
on a federal constitutional ruling, the State-Law prong of the Court's holding
is not independent of Federal Law, and ourtjurisdiction is not precluded.").
More specifically, the Court of Appeals determined and held that;
"Because Artis [Petitioner] could have raised his arguments in a direct
appeal, Artis's arguments are barred by the doctrine of res judicata and
he cannot now raise them in a post-sentence motion to withdraw his guilty
plea." id., fl.13 Appendix A.

-15-

While it is understood this Honorable Court until recently rarely granted
review of State-Court decisions in collateral review proceedings, prefering
to allow the claims adjudicated in such proceedings to be decided first in
Federal Habeas proceedings. See, Lawrence v. Florida, 549 U.S. 327, 335.
However, it should be noted (1) Petitioner is no longer incarcerated on this
matter, thus cannot seek Habeas Review, and; (2) The argument of why this
is being dealt with through a postconviction matter, years later, is premised
upon the fact that essentialy how could Petitioner ever have raised this
Constitutional violation within a State Direct Appeal in 2011, when the Court
deprived him of his right to counsel, incarcerated him,, and he is not an
attorney how could he have known his rights were being violated or could
be used against him eight (8) years later. Further, recently this Court has
granted review of State-Court decisions denying postconviction relief. See,
e.g., Foster v. Chatman, 136 S.Ct.1737; Wearry v. Cain, 577 U.S • t 136 S.Ct.
1002, 194 L.Ed.2d 78 (2016).
Petitioner's Merit Brief and Assignment of Error raised within his Direct
Appeal of his post conviction matter, argued that his Fourteenth Amendment
right to Due Process was violated when the Trial Court denied his post sentence
Motion to Withdraw plea, asserting that his Due process right was violated
when Ohio Law alrady allows post sentence Motion to Withdraw pleas if based
upon a manifest injustice. Ohio Crim.R.32.1. It should be clear a manifest
injustice occurred during the plea proceedings when it is undisputed that
the Beliefontaine Municipal Court failed to offer, appoint, and or waive
Petitioner's Constitutional right to counsel and went forward with incarcerating
him anyways, in violation of the Sixth U.S. Amendment and failure to apply
well settled U.S. and Ohio Law, thus when the Trial Court deprived Petitioner
of his right to withdraw a plea post sentence when a manifest injustice occurred,
his righ to due process was violated.

-16-

Within the State of Ohio, there are procedural mechanisms in place to
collaterally withdraw a plea, before sentencing and post sentence. Crim.R.32.1;
"A motion to withdraw a plea of guilty or no contest may be made only before
sentence Is imposed; but to correct a manifest injustice the court after
sentence may set aside the judgment of conviction and permit the defendant
to withdraw his or her plea." id.
Further, Case Law within Ohio as to post sentence withdraw, states:
"The party moving to withdraw the plea of guilty bears the burden of establishing
a manifest injustice." State v. Streeter, 2009-0hio-189, 51-13, citing State
v. Smith, 49 Ohio St.2d 261 (1977), paragraph two of Syllabus. The Ohio Supreme
Court defines a manifest injustice as, "a clear or openly unjust act and
relates to a fundamental flaw in the plea proceedings resulting in a miscarriage
of justice." State v. Straley, 2019-0hio-5206, 51-14.
However, while Ohio clearly allows post sentence motion's to withdraw
pleas based upon manifest injustice, the State of Ohio also states, "And
generally, res judicata bars a defendant from raising claims in a Crim.R.32.1
post-sentencing motion to withdraw a guilty plea that he raised or could
have raised on direct appeal." Straley., at 51-15.
According to OHio's res judicata doctrine, "A final judgment of conviction
bars a convicted defendant who was represented by counsel from raising and
litigating in any proceeding except an appeal from that judgment, any defense
or any claimed lack of due process that was raised or could have been raised
by the defendant at the trial, which results

in that judgment of conviction,

or an appeal from that judgment." State v. Perry, 10 Ohio St.2d 175, 226
N.E.2d 104 (1967), paragraph nine of Syllabus. The Ohio Supreme Court went
on later to explain the res judicata doctrine, in which stated: "the doctrine
serves to preclude a defendant who has had his day in court from seeking

-17-

a second on that same issue'/, and it "Promotes the principals of finality
and judicial economy by preventing endless relitigation of an issue on which
a defendant has already received a full and fair opportunity to be heard."
State v. Saxon, 109 Ohio St.3d 176, 2006-0hio-145, 846 N.E.2d 824, fl.18.
Petitioner argues that the Court of Appeals denied him Due Process by
barring his Constitutional claims, involving deprivation of liberty, based
upon res judicata. As established, in order for res judicata to barr a Petitioner
from raising a post sentence motion to withdraw a plea, based upon Ohio Supreme
Court precedent, the following would have to be determined first:
1: Petitioner was represented by Counsel within the Municipal Court
proceedings; and
2: Petitioner, while represented by counsel, had a full and fair opporunity
to be heard; and
3: The issue is something that should have been or could have been raised
within a direct appeal; and/or
4: If the issue was already litigated and adjudged.
It is highly important to note and emphasize the point herein that Petitioner
was in-fact not represented by counsel, at al, during the Municipal Court
proceedings. The first line of res judicata states, "A final judgment of
conviction bars a convicted defendant who was represented by counsel..."
Petitioner however, as it is admitted to by the Trial Court, did not legally
waive his right to counsel, and the Court never offered him counsel nor
appointed counsel. Petitioner was not afforded any Due Process and was never
afforded a full and fair opportunity "to be heard". Further, if the Trial
Court did not appoint counsel, the entire proceedings within are in question,
the importance of effective counsel during the entire proceedings, including
the plea process and preliminary hearings, is to protect "Against an erroneous
or improper prosecution." Quoting - Coleman v. Alabama (1970), 399 U.S. 1,
9, 26 L.Ed.2d 387, 90 S.Ct. 1999. The Court of Appeals, hence it was clearly

-18-

argued within the Merit Brief, should have observed the clear issue that
Petitioner was not represented by counsel, did not waive counsel, and as
such he did not receive a full and fair opportunity to be heard or raise
any issues with the conviction nor file an appeal, therefore res judicata
could not apply. More specifically, the issue of not being afforded counsel,
and being incarcerated, raises more than just a State issue, this act has
been completely prohibited by this Honorable Court, and continously upheld
as well, the Ohio Court of Appeals clearly, without writing it, either
egregiously misapplied settled Law by this Court, or did not feel when up
against settled Constitutional principals, res judicata still outweighed
such. Petitioner should not be "punished" because after he was convicted
and sentenced to jail in 2011 he did not directly appeal, thus waiving any
issues, when again he had no counsel, and did not know any better, plus how
could he have known back then that if he ever received a new domestic violence
offense those prior pleas would result in an enhancement of the new offense,
when again he had no counsel, in which had the Court appointed him Counsel
it is reasonable to expect Counsel would have went over this with him, would
of advised him his rights, the penalty's and effects of pleading guilty.
The point of appointing a Defendant counsel is to protect the Defendant's
Due Process during the proceedings, to advise the defendant, and to dispute
conflicts. The conviction rests on an Unconsoled plea, how is there any guarantee
the Petitioner was even guilty at all, or if any facts were in dispute, any
law in dispute, etc.
This Honorable Court within Powell v. Alabama, 53 S.Ct.55, as it relates
to Courts not affording Defendants Counsel, once honorably stated:
"The right to be heard would be, in many cases, of little avail if it
did not comprehend the right to be heard by counsel. Even the intelligent
and educated layman has small and sometimes no skill in the sdience of law.

-19-

If charged with crime, he is incapable, generally, to determine for him-self
whether the indictment is good or bad. He is unfamiliar with the rules of
evidence. Left without the aid of counsel he may be put on trial without
a proper charge, and convicted upon incompetent evidence, or evidence irrelevant
to the issue or otherwise inadmissible. He lacks both the skill and knowledge
adequately to prepare his defense, even though he has a perfect one. He requires
the guiding hand of counsel at every step of the proceeding against him.
Without it, though he be not guilty, he faces the danger of conviction
because he does not know how to establish his innocence."
The words spoken by this Court within Powell fits the issue here point
on, as res judicata cannot and should not bar a claim when the claim premises
upon the fact Petitioner was deprived counsel, which led him to be deprived
of his liberty, a defense and an appeal, in which is all shown to be in violation
of Petitioner's Sixth and Fourteenth Amendment rights, and a clear misapplication
and/or disregard for this Courts holdings. Argersinger v. Hamlin, 92 S.Ct.
2006 ("[E]very judge will know when the trial of a misdemeanor starts that
no imprisonment may be imposed, even though local law permits it, unless
the accused is represented by counsel." id., at 40
The Country has come far from the English Common Law Rule in which Courts
would deny Defendants Counsel for Felony offenses. Powell, at 60 ("Originally,
in England, a person charged with treason or felony was denied the aid of
counsel."). The act of not giving, offering, and/or waiving Petitioner's
right to counsel, and sentencing him-to jail and fine, then using the Unconsoled
conviction against him to put him in prison is not a step forward in our
system, but a step back. The English courts would do things like this, decide
who it would help, who it would not, this should not be allowed. It took
another 112 years after the ratification of the Sixth Amendment, and 35 years
after the ratification of the Fourteenth Amendment before England provided
Court-appointed counsel for all felonies. See, Poor Prisoner's Defence Act,
1903, 3 Edw. 7, ch. 38, §1. There is no dispute that Petitioner's Motion
to withdraw post sentence is eight (8) years after the fact, however Ohio

-20-

Law does not limit the time to file, only requires a Manifest Injustice. But
as argued and stated throughout this Petition, it should' not be disputed
that the Municipal Court did-in-fact violate Petitioner's 6th and 14th Amendment
rights and deprived him of liberty, but because of the deprivations of counsel
Petitioner could not and did not directly appeal or raise any issues, it
was not til the State of Ohio years later uses the void conviction against
him, gives him three (3) years in prison, counsel never once contested it,
and not till Petitioner is in prison and talking to a Legal Clerk does he
come to know and discover this whole time what the Municipal Court did was
illegal and now void, plus the State Court had no legal authority to enhance
a misdemeanor to a felony based upon the void conviction. Becuase of this,
eight (8) years later, Petitioner moves to withdraw his pleas, in which once
granted he will move for appointment of counsel and contest the charges against
him. His prior conviction is in no way the result of an intelligent, knowingly,
and voluntarily made plea deal, as such a conviction obtained in a proceeding
in which the Sixth Amendment right to counsel has been denied, is void. Gideon
v. Wainwright, 83 S.Ct.792; Argersinger v. Hamlin, 92 S.Ct.2006, as such
this Court has held that a conviction obtained in violation of the Sixth
Amendment, resulting in a deprivation fo liberty, could not be used to enhance
a subsequent offense. SeeyjiNichols.
Therefore, Petitioner strongly believes that the Ohio Court of Appeals
determination of res judicata is fundamentally improper and erroneous as it
has been clearly established that Petitioner was; (1) Not represented by
counsel; (2) Never offered counsel, nor waived counsel; (3) Deprived his
Sixth and Fourteenth Amendment Constitutional rights by the Trial Court,
in which is a clear manifest injustice resulting in the plea proceedings
to be fundamentally unfair; and; (4) Not aware of said manifest injustice
and deprivation of rights till the State of Ohio enhanced a subsequent offense

-21-

and imprisoned him upon it. Thus, the Court of Appeals denied Petitioner his
Due Process in violation of the Fourteenth Amendment to the United States
Constitution.

VI. CONCLUSION
Based upon the foregoing Argument, Facts, Law and Appendix herein,
Petitioner respectfully ask this Honorable Court to review the Decision and
Judgment of the Third District Court of Appeals of Ohio, based upon the
Bellefontaine Municipal Court Judgment and Decision, and to determine the questions
being presented; In which Petitioner strongly believes he can withdraw his plea,
post-sentence, when said plea-deal was Unconsoled in violation of the Sixth
and Fourteenth Amendment, resulting in deprivation of liberty, in contradiction
with this Courts prohibition against such conduct, in which res judicata would
not barr Petitioner now from raising said.Constitutional violations and
egregious disregard of Supreme Court precedent, as he was not represented by
Counsel during the Trial Court proceedings and said void conviction is now
being used to enhance a subsequent offense and imprisoned him. Petitioner
respectfully urges this Honorable Court to grant review.

RESPECTFULLY SUBMITTED,
f

V

/

\J /
^
Tyrell E. Artisj^_Pro-Se,
Petitioner-Movant,
Inmate: A746-808
P.0 BOX: 1812
Marion, Ohio 43301-1812.

-22-

